                             SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                             OFFICE OF INSPECTOR GENERAL


ISP-I-14-12A                                Office of Inspections                                   June 2014




                               Inspection of
                             Embassy Lima, Peru




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State
or the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior
authorization by the Inspector General. Public availability of the document will be determined by the Inspector
General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or
administrative penalties.



                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                            SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Findings                                             1
Context                                                  2
Leadership                                               3
Policy and Program Implementation                        6
  Foreign Assistance                                     6
  International Narcotics and Law Enforcement Affairs    8
  Political and Economic Sections                       11
  Law Enforcement and Visas Viper                       12
  Public Diplomacy                                      12
  Consular Section                                      16
  Naval Medical Research Unit-6                         19
Resource Management                                     21
  Management Overview                                   22
  Real Property                                         22
  Financial Management                                  22
  Human Resources Office                                24
  General Services                                      25
  Facilities Management                                 29
  Information Management                                29
Quality of Life                                         32
  Community Liaison Office                              32
  Health Unit                                           32
  Overseas Schools                                      32
  Employee Association                                  33
Management Controls                                     35
List of Recommendations                                 36
List of Informal Recommendations                        39
Principal Officials                                     42
Abbreviations                                           43




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
   •   In the past 3 years, Embassy Lima registered many successes in building a strategic
       United States-Peru partnership, particularly in counternarcotics, trade promotion,
       security, law enforcement, good governance, and development.

   •   The political and economic sections produce relevant and high-quality reporting that is
       instrumental to Washington policy making.

   •   The previous Ambassador put into place many processes and practices that had a
       negative effect on embassy morale. The chargé d’affaires and acting deputy chief of
       mission hesitated for months to make changes to improve the mission’s working
       environment but began to do so recently.

   •   The international narcotics and law enforcement affairs section plays a critical
       coordinating and implementing role, but the Bureau of International Narcotics and Law
       Enforcement Affairs needs to provide clear and consistent guidance in some areas.

   •   The public affairs section should establish clearer priorities and exert stronger
       missionwide leadership on long-term public diplomacy planning.

   •   The management section can improve its generally good service by emphasizing
       communication with other agencies and offices that rely on the procurement, motor pool,
       and travel units.

   •   The consular workload is growing steadily, and section leadership needs to improve work
       flow, efficiency, officer training, and the warden system.

   •   Embassy Lima should make full use of available contact database and SharePoint
       mechanisms to enhance internal information sharing.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 6 and February 4, 2014, and in
Lima, Peru, between February 5 and March 4, 2014. Ambassador Gene Christy (team leader),
Leslie Gerson (deputy team leader), Thomas Allsbury, Laurent Charbonnet, Eric Chavera, Leo
Hession, Tracey Keiter, Keith Powell, Ashea Riley, Richard Sypher, Alexandra Vega, Steven
White, Roman Zawada, and Barbara Zigli conducted the inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Context
        Emerging from a past plagued by political, social, and economic instability, Peru is
considered a Latin American success story. The United States-Peru bilateral relationship has
become a strategic partnership. Embassy Lima’s priorities are to support the Government of Peru
to defeat narcotics and terrorist organizations; increase trade, investment, economic growth, and
social development; and protect the country’s unique environmental resources. At the same time
that the Bureau for International Narcotics and Law Enforcement Affairs has increased financial
and material support for coca eradication, the U.S. Agency for International Development’s
(USAID) foreign assistance resources for Peru, particularly for alternative development, are
decreasing. Peru has recently increased its own contributions to both counternarcotics and
alternative development activities as it moves toward ownership of both programs.

        Peru is the world’s largest producer of cocaine and the second largest cultivator of coca,
but the current Peruvian administration has elevated combatting narcotics production and
trafficking to a “national security” priority. The Government of Peru has developed a
comprehensive counternarcotics strategy that parallels that of the U.S. Government. The Shining
Path, a designated terrorist organization, remains a threat, with armed combatants operating in
two coca-producing regions. Under the Peru Trade Promotion Agreement, United States-Peru
bilateral trade has expanded, contributing to mutual economic expansion. Nevertheless, a
significant minority of Peru’s population lives in poverty, with economic growth centered in the
capital and along the coast. Peru enjoys 84 of the 104 existing ecosystems and 25 of the 32
climates on the planet, including the fourth largest tropical forest in the world, but illicit logging
and drug production, informal mining, and related migration threaten Peru’s natural resources.
Notwithstanding the current alignment of U.S. and Peruvian priorities and strategy, it is not easy
to get things done in Peru, and in many cases U.S. engagement is the only impetus for Peruvian
interagency coordination. [Redacted] (b) (5)



       Mission Peru is a large operation with more than 900 employees as of December 2013.
The scope of the bilateral relationship and Lima’s increasing role as a platform for regional
operations justify this staffing level. Lima hosts a large presence from the Drug Enforcement
Administration (DEA), USAID, and the Naval Medical Research Unit (NAMRU-6). The U.S.
Secret Service established an office in Lima in 2012 to combat counterfeit currency operations in
Peru—the number one producer of counterfeit U.S. currency in the world—and other agencies
have expressed interest in beginning or expanding their presence in Peru. This growth has
increased the pressure on Embassy Lima’s budget and International Cooperative Administrative
Support Services (ICASS) providers.

        The mission’s development assistance budget for FY 2013 was almost $99 million. This
figure does not include approximately $14 million for Military Assistance Advisory Group
(MAAG) projects or NAMRU-6 funding, which is primarily grants-based.




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Leadership
        Embassy Lima did not have a Senate-confirmed ambassador in place at the time of the
inspection. After the previous Ambassador’s departure in September 2013, the deputy chief of
mission (DCM) became chargé d’affaires, and the head of the mission’s international narcotics
and law enforcement affairs (INL) section became acting DCM. Under the previous
Ambassador, the mission convinced the Department and highest levels of the U.S. Government
to work with President Humala, [Redacted] (b) (5)                                      . Working
closely with Peruvian Government, business, and civil society leaders, the mission racked up
successes in the pursuit of counternarcotics and antiterrorism goals, in advancing trade growth
under the bilateral trade agreement, and in building a strategic partnership. The chargé and acting
DCM have sustained this momentum.

       Initially, the chargé and acting DCM adopted caretaker roles in anticipation of the
Ambassador-designate’s quick arrival. Neither of them felt empowered to make significant
changes, nor did they want to adopt changes only to make additional ones or reverse others after
the new Ambassador’s arrival. By November 2013, they realized their new leadership duties
would extend for an indeterminate period.

        Unfortunately, the previous Ambassador’s policy successes were overshadowed within
the mission by a leadership style that negatively affected morale. Uncertain about their tenures
and in some cases not fully aware of the effects of the previous Ambassador’s leadership style,
the chargé and acting DCM kept in place most internal processes and a few problematic
behaviors. Some of these continued to damage internal communications and morale. For
example, many mission staff reported that the former Ambassador occasionally criticized and
belittled certain section chiefs and agency heads in front of their peers. Onerous and excessive
paperwork processes impeded communication. The amount of time and energy required to move
memoranda through the front office, as well as insistence on letter-perfect products—even for
materials intended solely for internal use—discouraged initiative and information sharing.

        Mission staff noted front office reliance on a group of trusted mission leaders. Others not
in the favored category were more likely to receive attention to weaknesses rather than strengths
or potential. The President’s letter of instruction to chiefs of mission states that one of the
Ambassador’s most important jobs is “to take care of our diplomatic personnel and to ensure that
they have the tools they need to support your efforts.” Other Department guidance speaks to the
role of Ambassadors and DCMs in establishing a productive workplace. The impact of the
negative environment and uneven attention paid to human capital development is evident in
lower-than-average scores for mission morale in pre-inspection surveys.

        Mission staff told inspectors they had expected the caretaker leaders to eliminate some of
the worst practices and processes of the previous 3 years. Comments to the OIG team indicated
that those expectations were unmet. Mission staff evaluations of the chargé’s and acting DCM’s
management and leadership skills were significantly below the averages of other recently
inspected chiefs of mission and DCMs. By hesitating to make immediate changes, particularly in
workflow and decisionmaking, the chargé and acting DCM became targets for employees’
frustrations. The OIG team counseled and encouraged mission leaders to institute some changes


                                        3
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

in behaviors and practices. Near the inspection’s end, the chargé acknowledged leadership
shortcomings to the country team and began instituting welcome changes.

Effective Communications

        The embassy’s meeting lineup does not facilitate decisionmaking and problem solving.
Mission leaders told OIG inspectors that the weekly chief of mission-chaired country team
meeting was intended to be a decisionmaking and problem-solving session, and a separate DCM-
led heads of section meeting was intended to facilitate information-sharing. That distinction was
not evident at the time of the inspection. In practice, country team and heads of section meetings
are almost identical, used for information sharing and not for problem solving.

        In addition, many staff members remarked that the atmosphere at meetings detracted
from communication. Public criticism, excessive demand for detail, and primary focus on front
office activities stifled information sharing and initiative taking among country team members.
Some participants restricted their communication during country team meetings, because new
ideas usually generated taskings and the attendant, onerous paperwork requirements. Paperwork
served as a barrier to communication, not a facilitator, and stymied the kinds of informal
communication and quick, issue-focused meetings common in most embassies. Even before the
inspection, the chargé and acting DCM increased their access to mission staff. During the
inspection, the chargé announced that the front office would relax requirements for information
memoranda and welcome more casual, on-the-spot conversations to facilitate decisionmaking.

         To manage the intense paperwork requirements under the former Ambassador, the
mission established an informal staff assistant position that drew consular section and USAID
first- and second-tour (FAST) employees to the front office for 3-month rotations. Staffing the
position put pressure on both the consular section and the USAID mission, especially when they
were shorthanded. Moreover, short rotations forced mission staff to adapt to a series of new staff
assistants, who were learning on the job. In 2012, the Bureau of Western Hemisphere Affairs
denied the embassy’s request to establish a full-time staff assistant position. The OIG team
discussed with the chargé how other similarly sized missions have relied successfully on
experienced Foreign Service office management specialists to take on staff assistant duties.

       Informal Recommendation 1: Embassy Lima should conduct a zero-based review of all
       current meetings, working groups, paperwork demands and processes, as well as the
       informal staff assistant program and have recommendations that are designed to facilitate
       communications in the mission ready for the new Ambassador.

Attaché Issues

        In 2008, the Department sent to all diplomatic missions a message describing the creation
of the senior Defense officer and Defense attaché (SDO/DATT) position and advising chiefs of
mission that “the Deputy Secretary of State supports this reform as an important means of
streamlining chief of mission management of an increasingly diversified Defense presence
overseas.” In 2011, the Secretary of Defense appointed a new SDO/DATT and designated him as
the principal Department of Defense (DOD) official at the embassy and his representative to the
Ambassador and Government of Peru. The previous Ambassador dealt separately and equally
with the mission’s several different DOD elements and sometimes excluded the SDO/DATT
                                        4
                           SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

from meetings with other DOD components. Recently, the mission prepared a briefing book for
the Ambassador-designate. The coordinator of the process tasked each DOD element for separate
briefing papers. Failure to recognize the Secretary of Defense’s designation of a SDO/DATT
contravened the instruction of the Deputy Secretary of State and disempowered the SDO/DATT.
Before the inspection, the acting DCM began to acknowledge the SDO/DATT’s position, and the
chargé met with the attaché during the inspection for a discussion of his role.

        Informal Recommendation 2: Embassy Lima should take steps to demonstrate
        recognition of and respect for the Secretary of Defense designation of a senior Defense
        official and Defense attaché in Peru.

        Under the former Ambassador, the Foreign Commercial Service, Foreign Agricultural
Service, and Animal and Plant Health Inspection Service attachés routed written communications
through the economic counselor. In some cases, they believed they were required to report to the
front office through him. That practice was still in effect at the time of the inspection. These
procedures diminish the attachés’ ability to represent their respective agencies. Per 2 Foreign
Affairs Manual (FAM) 112.1 (b), the chief of mission has the authority to determine the precise
structure of a mission but should submit any organizational changes in advance to those
agencies’ headquarters for concurrence when they affect specialized subordinate elements such
as the above-mentioned agencies. The mission did not follow this procedure.

        Informal Recommendation 3: Embassy Lima should clarify the mechanism that attachés
        use to report to or route documents to the front office.

First- and Second-Tour Generalists and Specialists

           The Director General of the Foreign Service updated guidance to missions in 2012,
giving DCMs the primary responsibility for training, counseling, and evaluating the
Department’s new Foreign Service employees. Including Foreign Service specialists and FAST
USAID mission staff, Embassy Lima has 29 FAST employees 1. Until fall 2013, the FAST
program featured the Ambassador’s and DCM’s facilitation of policy discussions. Only a
handful of FAST employees were afforded hands-on professional development opportunities. As
a result, at least one section developed its own in-house mentoring program. The acting DCM
instituted monthly, free-ranging meetings with these officers, but some did not see value in an
unstructured program. After the OIG team met with the embassy’s FAST employees, the acting
DCM followed up at their request to discuss an enhanced professional development program for
all FAST employees that could include elements like drafting cables, note taking, and traveling
with senior officers.




1
  The mission has 19 Department first- and second-tour generalists and specialists and 10 USAID development
leadership initiative officers.

                                            5
                               SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Foreign Assistance

        Foreign assistance is one of the pillars of the U.S. Government’s Peru strategy. The
Office of U.S. Foreign Assistance Resources’ operational plan for Peru parallels the embassy’s
Integrated Country Strategy. Foreign assistance program areas include: stabilization and security,
counternarcotics, transnational crime, good governance, education, and environment. DEA and
MAAG funds that are not part of the foreign assistance operational plan focus on one or more of
those program areas as well. USAID coordinates written products relating to the mission’s
overall assistance program, but each agency or office runs its own assistance activities. Several
interagency working groups, in addition to facilitating strategy development, also serve as
coordination mechanisms for foreign assistance programing and implementation. For example,
after INL-funded eradicators clear coca plants from a community, USAID introduces alternative
development projects, as well as health and educational opportunities, and MAAG undertakes
small infrastructure projects and limited commodity purchases such as pharmaceuticals.
Eradication and post-eradication efforts take place after detailed consultation and close
coordination with the Peruvian Government’s counternarcotics agency.

         Much of the foreign assistance is administered through grants, contracts, and cooperative
agreements with implementing partners, both U.S. and local. In addition to development and
military assistance linked to the counternarcotics effort, the embassy informally oversees several
grants that contribute to good governance and education goals. Grants officer representatives and
program managers expend as much effort monitoring smaller grants made to newer
implementing partners as they do overseeing larger grants administered by U.S. entities, but all
parties acknowledge the importance of encouraging broad Peruvian participation in development
and not just relying on the same implementers. In FY 2013, the Government of Peru contributed
$12 million to INL’s eradication program–the first time the Peruvian Government had made a
direct financial contribution to the eradication effort and, in the process, taken an important step
toward ownership of the program. The Government of Peru has also increased its alternative
development 2 budget significantly–from $20 million in 2011 to a projected $62 million for
2014–roughly twice the amount of USAID’s alternative development budget.

       NAMRU-6 has administered a regional DOD HIV/AIDS Prevention Program since 2009.
In FY 2013, NAMRU-6 in Lima received approximately $2 million in DOD funding that
included, for the first time, an additional funding transfer from the Department’s President’s
Emergency Plan for AIDS relief. Last year’s total award was for projects throughout Latin
America. Funding is limited to equipment, travel, and administrative costs. Both embassy and
NAMRU-6 financial management staffs have roles in tracking funds and procuring commodities,
but Department and DOD accounting systems are not compatible. Staff members from each
agency work well together, however, documenting expenditures manually, if necessary.
Oversight for all U.S. Government international HIV/AIDS activities resides with the
Department’s Global AIDS Coordinator, who is represented at all annual DOD Coordinating
Board meetings. DOD also reports to the coordinator on project execution quarterly.

2
    Alternative development refers to other livelihoods to replace coca cultivation.

                                                6
                                   SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Grants Management

        Grants officers at the embassy and the Department awarded 64 grants for Peru totaling
more than $26 million in FY 2013. The majority of those grants support counternarcotics and
public diplomacy activities. Five Washington-based grants target issues in the political section’s
sphere of responsibility. In those cases, both the grants officer representatives and the program
managers are in Washington–three at the Department of Labor and two in the Department’s
Bureau of Democracy, Human Rights, and Labor. Thus, the human rights officer coordinates
with the program managers but has no official monitoring responsibility; she has not had
Department grants management training.

        The Department of Labor sends monitors to the field to oversee its programs, totaling
$15 million, and keeps the political section informed of progress and activities. The Bureau of
Democracy, Human Rights, and Labor relies on a primary grantee in Geneva, Switzerland, to
provide monitoring and oversight of the sub-grantees in Peru. The embassy’s human rights
officer has some contact with the sub-grantees but has no oversight role.

Recommendation 1: The Bureau of Democracy, Human Rights, and Labor should establish a
mechanism to share information with Embassy Lima about grant progress and performance
evaluation. (Action: DRL)

Recommendation 2: Embassy Lima should enroll in on-line grants management training
political section employees with formal or informal grants oversight responsibilities. (Action:
Embassy Lima)

        The INL and public affairs sections have grants management resources and program
expertise. The INL section uses a team approach to grants management, leveraging program
advisors, financial managers, grants officers, and grants officer representatives who collaborate
throughout the life cycle of a grant. The INL section communicates diligently with the grantees
and submits monthly financial and programmatic reports on time, as required in the monitoring
and evaluation plan. In January 2014, it organized and funded regional grants management
training to ensure the maximum number of staff have appropriate training and can be certified as
grants officer representatives.

        All 11 of the public affairs section’s grants officer representatives are fully trained and
certified. However, the public affairs officer does not have a grants warrant. As a result, for
about 6 months, the section had only one grants officer, who was also serving as treasurer of the
Fulbright board at a time when the section had several open grants with the Fulbright
Commission, posing a potential conflict of interest.

Recommendation 3: Embassy Lima should have at least one public affairs grants officer who is
not on the Fulbright Commission board. (Action: Embassy Lima)

        The public affairs section funds a variety of activities across the country through grants,
including workshops, cultural events, training programs, and equipment purchases. The section
specifies financial and program reporting requirements in its grants documents but does not
include formal plans for monitoring and site visits as described in Grants Policy Directive 42,
which are especially necessary for larger, long-term grants.
                                         7
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

         Informal Recommendation 4: Embassy Lima should include more detailed monitoring
         plans in complex grants.

         Among the public affairs section grants was a $272,295 mega-grant to the Fulbright
commission that the section had repeatedly extended and augmented with a variety of additional
activities until it reached a total of more than $815,000. The range of this grant made it difficult
to administer and monitor. The OIG team cautioned the section to keep grants focused and
manageable.

       The public affairs section keeps all its grants files in unlocked cabinets. Some files
include personally identifiable information, such as names, address, telephone numbers, and
email addresses, for U.S. citizens.

Recommendation 4: Embassy Lima should store all grants files with personally identifiable
information of U.S. citizens in approved bar lock cabinets or safes. (Action: Embassy Lima)

         The public affairs section holds a useful quarterly meeting of its grants officers and grants
officer representatives to discuss grants issues, new directives, and procedures. The INL section
recently conducted an internal meeting addressing many of the same issues raised in the public
affairs section’s quarterly meeting. Expanding participation in the public affairs grants meetings
to more offices and agencies could improve grants management embassy-wide.

         Informal Recommendation 5: Embassy Lima should convene periodic embassy-wide
         meetings of grants officers and grants officer representatives to discuss grants issues.

International Narcotics and Law Enforcement Affairs

        The first objective in the embassy’s Integrated Country Strategy is to assist the
Government of Peru in the reduction of cocaine production and exportation while strengthening
rule-of-law-based mechanisms that ensure democratic institutions. The INL section coordinates
the mission’s counternarcotics policy in partnership with the front office and with other agencies,
like USAID, DEA, and MAAG.

       The section’s Foreign Service officers have a broad span of control, with four officers
managing an FY 2013 budget of more than $43 million and overseeing the work of 37 locally
employed staff and 20 personal services contractors. The latter are technical experts but have, in
some cases, limited program management experience, which places greater oversight
responsibility on their Foreign Service supervisors. The section chief’s assignment as acting
DCM since September 2013 has reduced the number of Foreign Service managers by 25 percent.

        The INL section has a strategic plan for the use of unsubobligated (“pipeline”) funds 3 and
monitors its pipeline carefully. In 2011, the section had a $70-million pipeline but had reduced
its pipeline to $40 million at the time of the inspection 4. Scrupulous pipeline management is

3
  In the case of INL funding, those funds that have been obligated by the end of their 2-year lifespan have to be
subobligated and spent within the next 5 years. During the intervening period, they are in the “pipeline.”
4
  INL also received and expended its normal FY 2012 budget while reducing pipeline funds.

                                              8
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

essential for ensuring seamless operations because timing has become unpredictable, the amount
of funding is variable, and each fiscal year’s funding includes both programmatic and
nondiscretionary administrative expenses. The INL section has received neither the bulk of its
FY 2013 nor any FY 2014 funding yet, but it is able to support its commitments because of the
pipeline. The section routinely expends its funds for eradication and aviation and rarely develops
multi-year pipelines in those areas. Management plans to pay particular attention to strategic
planning for police and ports programs and reduce those two pipelines in the next few months.
No funds have expired in recent years.

Section Consolidation

         The section occupies three separate office suites on two floors in the embassy,
challenging oversight and internal coordination. The section chief, deputy, and program
managers have offices on the fifth floor. Their support and implementation colleagues, two
floors below, are in constant transit between floors. Similarly, the programmatic and financial
units, although on the same floor, occupy noncontiguous spaces. Because they work on the same
grants and programs, essential documents are rarely in the central file repository but often in
transit, contributing to inefficiency.

       The embassy has developed a floor plan that will consolidate most INL operations in one
space. Consolidation will improve communication, streamline process, and foster a more
collaborative environment. However, consolidation depends on relocating two other agencies,
and an eventual move will require sustained attention to all the related relocations.

       Informal Recommendation 6: Embassy Lima should continue to give priority attention
       to consolidation of the international narcotics and law enforcement affairs section.

End-Use Monitoring

        An integral part of the INL program is the procurement and donation of commodities that
enhance the Government of Peru’s ability to partner with the United States on a range of law
enforcement and counternarcotics activities. Section 484 of the Foreign Assistance Act requires
the Bureau of International Narcotics and Law Enforcement Affairs to take all reasonable steps
to ensure that equipment donated to foreign countries is used for the purpose for which it was
donated. The end-use monitoring program is designed to track donated commodities throughout
their useful life.

        In FY 2013, the INL section converted its donated commodities inventory from a local
computer-based application to the Department-wide Integrated Logistics Management System
(ILMS), as required. Prior to 2013, the section maintained separate inventories for in-life-span
and out-of-life-span items, which meant that only the former had to be inventoried annually.
With the conversion to ILMS, the section had to identify and add to the ILMS inventory
approximately 6,000 out-of-life-span items, which, in many cases, had been moved several times
from their original locations. The ILMS system is suited to standard inventories, where all items
are in a warehouse or an office building. The embassy’s earlier system was better suited to INL
end-use monitoring and saved time when inventorying in remote locations.


                                        9
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Despite the difficulties of converting to ILMS, the INL logistics unit estimates that it can
locate, inventory, and dispose of approximately 5,000 out-of-life-span items in FY 2014,
reducing total inventory by nearly 50 percent. The section has not found any instances where
commodities have been redirected from their intended use, although items donated to the
national police change locations regularly and often require considerable effort to find.

Invitational Travel

        The section sends dozens of trainees to the United States or on travel within the region
every year. The embassy uses the E2 Solutions Web-based travel management tool for regular
invitational travelers and finds E2 a better tool for tracking open travel vouchers than other travel
authorization mechanisms. However, for one-time travelers, especially those from rural areas
who do not have U.S.-denominated bank accounts, the INL section prefers to use the Temporary
Duty Official Travel Authorization form (JF-144) to expedite travel.

        Grants policy directive 10 states that invitational travel may be processed using either the
e-Travel software solution or post-specific travel procedures. Per 09 STATE 108563, questions
pertaining to invitational travel fall under the purview of the Bureau of Administration’s Office
of Logistics Management, but the embassy has not attempted to clarify the circumstances where
a non-E2 travel authorization would be preferable, nor has the Bureau of International Narcotics
and Law Enforcement Affairs issued clear guidance or coordinated with the Office of Logistics
Management about the options for processing one-time travelers expeditiously. As a result, the
INL section has experienced delays in finalizing travel and conflicting guidance over invitational
travel procedures. The General Services section of this report makes an additional
recommendation about embassy travel policies.

Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs
should coordinate with the Bureau of Administration to establish a clear invitational travel policy
that includes options for processing one-time travel authorizations. (Action: INL)

Support for the Drug Enforcement Administration

        The INL section and DEA have different but complementary responsibilities. The section
administers some of DEA’s funding. In addition to pipeline fund management, a 2012
interagency reimbursable agreement between the Bureau of International Narcotics and Law
Enforcement Affairs and DEA headquarters committed the INL section in Lima to provide
procurement support, travel assistance, facility leasing, and end-use monitoring on DEA Lima’s
behalf. Because that agreement essentially commits the INL section to provide services to DEA
in Lima that it no longer provides for itself, the Bureau of International Narcotics and Law
Enforcement Affairs and the Drug Enforcement Administration amended the agreement in
October 2013. The amendment includes a provision for Lima’s INL section, general services,
and financial management offices to delineate the services each will provide for DEA in Lima.
However, the parties in Lima have never formalized a delineation of services. Confusion about
who is responsible for what services persists.

Recommendation 6: Embassy Lima should formalize the delineation of services between
Department of State entities and the Drug Enforcement Administration section to clarify which
entity provides which services. (Action: Embassy Lima)
                                        10
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Political and Economic Sections

        Embassy Lima’s political and economic sections have a total of 11 officer positions.
Language-qualified officers fill 10 of those positions, giving the embassy a strong team for
reporting and advocacy.

Reporting and Policy Advocacy

        Washington’s policy and analytic communities praise the embassy’s political and
economic reporting, which one analyst called “the gold standard.” Relevant and high-quality
reporting, coupled with front office relationship building and sustained political and economic
section advocacy, has contributed to the expansion in the last 3 years of the United States-Peru
partnership.

        The OIG team reviewed the embassy’s political and economic reporting over a 7-month
period. Cables were a useful mix of short “breaking news” items and longer analytic or
commentary pieces. Some reporting developed from travel outside the capital. Virtually every
substantive cable, even if routine, required front office editing and approval. This requirement
improved product quality but slowed information flow to Washington. The OIG team discussed
greater delegation of authority for message approval with the front office, and the chargé agreed
to implement work flow improvements during the inspection.

        The political section provides outstanding coverage of Peru’s presidency, domestic
politics, and interparty wrangling; in the last year, the political section also increased reporting
on counternarcotics efforts, synthesizing information from USAID, the INL section, and U.S.
military and law enforcement agencies. Reporting on Peru’s relations with its neighbors was
relatively sparse compared to internal reporting.

       Informal Recommendation 7: Embassy Lima should review the political reporting plan
       and determine whether reporting adequately reflects mission goals beyond domestic
       politics, counternarcotics, and law enforcement cooperation.

Human Rights

        The political section is responsible for six annual reports mandated by law or policy,
which it has submitted satisfactorily and on time. The July 2013 loss of a professional associate
position with a focus on human rights, trafficking in persons, and Leahy vetting diminished
human rights reporting capability. Lima’s remaining human rights officer is stretched thin, and
reporting on those subjects–outside of the annual reports–has almost ceased. The human rights
officer has played an active role, however, in the design and funding of several training and
advocacy programs for the Peruvian Government and civil society on trafficking in persons and
child labor. No new permanent or stop-gap positions for human rights reporting are likely in the
near term.

       Informal Recommendation 8: Embassy Lima should adjust political section portfolios
       to provide adequate reporting for human rights and trafficking issues.


                                        11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Political-Military Issues and Leahy Vetting

        The political/military officer is the Department’s working-level link with DOD offices in
the embassy and in Washington. For several years, political/military officers had a minimally
successful coordination role within the mission. In recent months, coordination between the
political section and U.S. military elements improved, largely because of changes the acting
DCM suggested to make the monthly political/military meetings a more effective opportunity for
information sharing.

        Leahy vetting for all military and police trainees is required by U.S. law. Given the
vibrant United States-Peru security and law enforcement training partnership and Peru’s history
of police and military unit involvement in human rights abuses, Leahy vetting is a sensitive and
important task. Embassy Lima’s vetting processes are thorough and sound.

Environment, Science, Technology, and Health

        A regional environment officer works within the economic section and formally reports
to the economic counselor, although he travels frequently to other countries in South America.
Peru itself is an environmentally strategic country for the U.S. Government. Helping Peru protect
its environmental resources is one of the embassy’s Integrated Country Strategy objectives, and
Peru has undertaken substantial free trade agreement commitments to protect its natural
resources. In acknowledgement of this objective, the economic section hired a professional
associate who will focus on Peru-specific environmental issues. The Information management
narrative makes a recommendation about the regional environment office’s Web site.

Law Enforcement and Visas Viper

        To assist Peru in fighting narcotics, terrorism, and currency counterfeiting, the United
States has expanded its assistance for law enforcement and internal security. The embassy has a
substantial law enforcement presence, including the INL section, DEA, and the U.S. Secret
Service. On behalf of U.S. Southern Command, military elements contribute to counterterrorism
and coca eradication programs and training. Mission leaders facilitate close and effective
cooperation among agencies through the law enforcement working group and other mechanisms.

       The Visa Viper program is a very active, smoothly functioning example of interagency
                                                                              [Redacted] (b) (5), [Redacted] (b) (7)(E)

cooperation. The law enforcement working group covers Visas Viper issues.


Public Diplomacy

        The public affairs section runs an extensive set of programs tied to mission themes, but
the public affairs officer has been unable to exert strong missionwide leadership on long-term
public diplomacy planning. Several factors contributed to this situation–an intimidating
atmosphere in embassy meetings resulting in a hesitancy to take ownership of strategic
messaging, distractions caused by time-consuming front office demands, and a dearth of
experienced officers in the section. The OIG team provided counseling about the need to put
forward positive proposals and better direct section efforts to top mission priorities. Some


                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

improvement has occurred recently, and the section produced a comprehensive year-long
strategy for the United States-Peru Trade Promotion Agreement’s fifth anniversary.

         Recognizing a need to give the front office more information about public diplomacy
activities, the section began sending a weekly look-ahead email in January. However, no unified
public diplomacy calendar existed. Implementing such a calendar would facilitate coordination
within the section and with the rest of the embassy.

       Informal Recommendation 9: Embassy Lima should create a public diplomacy program
       and outreach calendar and place it on the internal mission SharePoint site.

Public Advocacy and Outreach

         Most embassies make public outreach a missionwide priority. Until recently, the front
office, INL, and public affairs staff conducted most of the mission’s outreach. Officers from the
economic, political, and consular sections engaged in some outreach, but participation was
uneven. For example, over a 6-month period, economic officers organized or made remarks at
eight widely attended public events, and the human rights officer carried out an extensive public
speaking agenda, but the political counselor and deputy counselor had only one speaking role
each in public outreach events.

Recommendation 7: Embassy Lima should include public outreach as an ongoing
responsibility in work requirements statements and establish a mechanism to monitor
participation. (Action: Embassy Lima)

       Public diplomacy programs and grant activities take place in far-flung locations within
Peru. Officers from other sections have added public diplomacy events when they travel, but a
more systematic approach would expand the U.S. public presence, give officers more outreach
opportunities, and improve program monitoring. A missionwide travel calendar on which all
sections enter their travel would enable the embassy to make better use of its travel funds.

       Informal Recommendation 10: Embassy Lima should create a missionwide travel
       calendar on its internal embassy SharePoint site.

        Although the embassy has sent officers to address Peruvian audiences about specific
issues such as the U.S. election, it does not have a regular embassy speakers program, a common
practice worldwide to increase public outreach. Several FAST officers expressed interest in more
speaking opportunities, which would help them develop the oral communication skills required
by professional competence and promotion precepts, but it is difficult for them to get away from
the office unless the event is arranged well in advance. During the inspection, the public affairs
section began to discuss whether to initiate such a program.

Recommendation 8: Embassy Lima should establish an embassy speakers program with an
initial focus on first- and second-tour officers. (Action: Embassy Lima)




                                       13
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Cultural and Educational Programs

         The public affairs section manages a wide-ranging set of cultural programs and
educational exchanges tied to mission goals. Washington offices praised the section’s
implementation of its large and varied set of programs. However, the section has sometimes
allowed the press of immediate program needs and the demands of Washington offices to drive
activities rather than set priorities more strategically. The arrival of the first experienced cultural
affairs officer in more than 2 years is moving the section in this direction, and the OIG team
encouraged these efforts.

        Several successful programs target issues of special interest to Peruvians. The United
States has received positive publicity for the Ambassador’s Fund for Cultural Preservation,
where the quality of the embassy’s proposals has made Peru one of the top five countries in the
world for this grant competition. The presence in Lima of the regional English language officer
has enabled the embassy to carry out extensive English language programs supporting other
mission goals, such as economic development and social inclusion.

        A binational Fulbright Commission carries out academic exchanges and a variety of other
public diplomacy programs. Although the Peruvian Government does not provide financial
support to the Fulbright Commission, it has supplied a building rent free, and private Peruvian
companies and organizations have supported scholarships. The public affairs officer chairs the
Fulbright board, and an assistant cultural affairs officer has been serving as board treasurer.
Because the Fulbright office is an integral part of public diplomacy programming, the OIG team
suggested including the Fulbright executive director, as well as the regional EducationUSA
advising coordinator, in section staff meetings. The section started to do so during the inspection.

       Among the programs the Fulbright Commission administers is Teaching Excellence and
Achievement, which sends Peruvian high school teachers to the United States. The Commission
publicized the most recent opportunities through its social media and Web site but received only
about a dozen applications for four positions.

        Informal Recommendation 11: Embassy Lima should become more involved in the
        recruitment, selection, and briefing of participants in the Teaching Excellence and
        Achievement program.

        The Fulbright Commission has not always provided complete information about housing
and arrival logistics to incoming American grantees. The embassy provides the grantees a
security briefing on arrival, but the embassy and commission have not carried out all the
guidance on procedures for academic exchange programs in crisis situations listed in 12 State
87602, including incorporating all U.S. Government-sponsored exchange participants in the
emergency action plan, sending a copy of this plan to the Fulbright office in Washington,
including Fulbright grantees in annex B of the warden system, and developing a Fulbright
Commission emergency action plan.

Recommendation 9: Embassy Lima should establish procedures for overseeing the housing and
logistical plans for incoming American Fulbright grantees in accordance with Department of
State guidance. (Action: Embassy Lima)

                                         14
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Press and Information Outreach

        The press office coordinates news media contact by all mission elements and leads an
interagency communications meeting that keeps sections informed of each other’s activities.
Press office staff members brief embassy leadership daily on issues in the news and keep the rest
of the embassy and Washington offices informed through a daily news summary. The press
office has produced a comprehensive set of media landscape analyses in Peru.

        The section uses a comprehensive strategy to direct its digital outreach—an important
tool in Peru, where Internet penetration is about 50 percent and growing. Through strong content
and promotion, the section has increased the fan base of its 4-year-old Facebook site to 127,000.
The section also reaches 26,000 people through a Twitter feed aimed at journalists,
commentators, and political and government figures. Although the section frequently updates the
social media sites, the top stories in late February on the mission Web site, which remains the
chief long-term repository of information, were a month old, and some links did not work.

      Informal Recommendation 12: Embassy Lima should update the mission Web site
      regularly and use it to showcase embassy activities.
Information Resource Center and American Spaces

        The Information Resource Center is not open to the public and focuses most of its efforts
on working with libraries at binational centers, promoting use of resources such as eLibrary, and
conducting webcasts and two webinar series on English teaching and information for businesses
about trade with the United States. The webinars are available on a separate YouTube site that
does not have a link on the embassy Web site.

       Informal Recommendation 13: Embassy Lima should combine its separate YouTube
       sites or link the embassy Web site to both.

        To create a space for webinars and other public outreach programs, the public affairs
section obtained about $40,000 in American Spaces funding from the Bureau of International
Information Programs and contributed $87,000 of its own funds to relocate staff offices from a
large first-floor space and refurbish it with furniture and equipment suitable for its new purpose.
In its 2006 inspection report, the OIG team recommended moving the Information Resource
Center out of this same space because of limited public use. Public diplomacy money funded the
current project, so it is important that the embassy use the space regularly for its intended
purpose.

Recommendation 10: Embassy Lima should establish a plan for mission public outreach
activities in the newly refurbished first-floor public diplomacy space. (Action: Embassy Lima)

        Public diplomacy in Peru benefits from the large network of 25 binational center sites,
which are private, non-profit entities that support themselves through English teaching but also
host EducationUSA advising centers and serve as key partners for public diplomacy activities
such as cultural events, seminars, speakers, and English-language programs. They received
public affairs section and American Spaces funding for equipment and activities totaling more
than $500,000 in FY 2013. Members of the public affairs staff engage with the centers and meet

                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

informally to discuss activities but lack an overall strategy for making the best use of this asset
by prioritizing the centers, establishing a visit schedule, and analyzing the program mix.

       Informal Recommendation 14: Embassy Lima should establish a comprehensive plan
       for working with the binational centers.

Consular Section

        The consular section is a medium-sized operation, with steadily increasing visa and
American citizens services workloads that reflect both Peru’s growing prosperity and its status as
a tourist destination. The immigrant visa and fraud prevention units function well, but the
nonimmigrant visa unit faces challenges with efficiency and workload management, and the
American citizens services unit with emergency preparedness. Consular managers are
approachable and emphasize teamwork, but they have not uniformly provided the strategic
thinking, procedural guidance, and surge capacity that the section needed to be optimally
effective. The consul general and the visa chief have dedicated so much effort responding to
detailed front office requests for information that they have not paid enough attention to daily
operations. Even absent front office demands, their hands-off management style has prevented
them from identifying procedural efficiencies, providing training and feedback for nonimmigrant
visa interviewing officers, and modeling interview techniques. The OIG team counseled section
managers on ways to address these deficiencies, and they took some steps to improve efficiency
immediately.

       The program for rotating officers among the several units for cross training promotes
good consular officer development. However, the high volume of work makes it difficult for
consular officers to participate in events outside the consular section. This situation has
contributed to a sense of isolation from the rest of the mission and hindered the professional
development of the entry-level officers. The OIG team counseled management on ways to
enhance officer development and reach out more often to other parts of the embassy.

Nonimmigrant Visa Unit

        In FY 2013, Lima processed more than 100,000 nonimmigrant visa applications, but wait
times for visa interviews have approached the 30-day mark. The entire staff is hard pressed to
keep up with demand from the traveling public, even though the number of positions available to
interview applicants is appropriate for the case load. A series of unanticipated staffing gaps in
FY 2013 magnified the problem. Interviewing officers and local staff work hard but are not
necessarily efficient. Officers, tired after a minimum of 6 hours of interviewing, make too many
simple mistakes that in turn require time-consuming corrections. Too many cases, particularly
those awaiting advisory opinion responses, are not processed to conclusion promptly because of
lack of oversight and clear standard operating procedures.

        The consul general and the visa chief rarely adjudicate visa applications, except for high-
profile or referral cases. A recent cable (13 STATE 153746) reminded posts that consular
managers are expected to do some interviewing themselves. Not only does the lack of hands-on
participation contribute to the long hours that the more junior staff has to spend interviewing, this
remoteness from actual processing undermines their credibility as experts. It also reduces the

                                        16
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

opportunities for management to train new personnel and to identify potential interview
technique and workflow efficiencies.

Recommendation 11: Embassy Lima should require both the consul general and the visa chief
to conduct routine visa interviews on a regular basis. (Action: Embassy Lima)

        The section is in the process of updating its standard operating procedures, but not all are
current, and reference material is scattered in various electronic locations, rather than
consolidated on the section’s SharePoint site. Written procedures are not dated, making it
difficult to be sure which information is current.

       Informal Recommendation 15: Embassy Lima should require the consular section to
       update standard operating procedures and place all procedures, clearly dated, on the
       SharePoint site.

        The nonimmigrant visa unit makes insufficient use of the option to waive visa interviews
for many applicants renewing visas, per 9 FAM 41.102. At least 50 cases a day, or 10 percent of
the average caseload, involve renewals of current or recently expired visas. A recent validation
study confirms an overstay rate for Peruvian tourist and business visa holders of less than
2 percent, which means that a high percentage of all visa applicants respect the terms of their
visas. Re-interviewing applicants who have used their visas appropriately in the recent past slows
down workflow and contributes to the long interview shifts. Consular management began to plan
for implementing an interview visa waiver process during the OIG team’s visit, although they
had been considering it for some time.

Recommendation 12: Embassy Lima should waive personal interviews for appropriate visa
applicants. (Action: Embassy Lima.)

        Only three nonimmigrant visa interview windows have fingerprint machines, limiting the
options for collecting biometrics. The small number of fingerprint machines means that only
eligible family members with appropriate clearances can collect biometrics instead of giving
local staff and interviewing officers the flexibility to do so if the need arises. As a result, when
bottlenecks occur at the fingerprint stations, management has few options to keep applicants
moving through the process.

Recommendation 13: Embassy Lima should request fingerprint machines for all visa interview
windows. (Action: Embassy Lima)

        The visa waiting room is long and narrow. Applicants have to wait in close proximity to
the interview windows. It is noisy, and interviews are audible to other applicants. The embassy
has not provided any remediation for this situation.

       Informal Recommendation 16: Embassy Lima should install privacy wings and sound-
       proofing material on the applicant side of the visa interview windows.




                                        17
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

American Citizens Services Unit

        U.S. tourism to Peru exceeds 370,000 visits annually. The high altitude of major tourist
destinations is a challenge for tourists with health conditions. Peru also attracts tourists seeking
adventure and easy access to narcotics, who are more likely to meet with accidents and other
problems in remote locations. In addition to the growing need for welfare and whereabouts
services for American tourists, demand for passport services has also grown. Passport
applications exceed 3,500 per year, nearly 13 percent more than the 2011 number. Of that
number, about 25 percent are requests for emergency passports–an increase of more than one-
third in the last 2 years. The complexity and volume of the American citizens services workload
presents challenges for the operation.

        The unit operates well and provides good emergency coverage. The unit maintains a
consular duty phone so that the embassy duty officer can reach a consular officer at any time.
Consular duty rotates among the three officers serving in the American citizens services unit,
placing a heavy burden on those officers, who are on call every third week, in addition to being
part of the regular embassy duty officer rotation.

       Informal Recommendation 17: Embassy Lima should rotate consular duty among all
       consular section officers with experience in American citizens services.

        The American citizens services unit maintains a warden network per 7 FAM 070, but the
warden program has only 24 wardens and suffers from lack of attention. The network is designed
to connect the consular section to more than 30,000 U.S. citizen residents in Peru, as well as to
tourists. Most parts of the country outside the coastal strip near Lima are easily reachable only by
air, limiting rapid embassy response, which makes a vibrant warden program even more
important. Building ties to long-term residents in remote locations, and convincing them to serve
as wardens, involves a sustained effort by the consular section and the support of other parts of
the embassy. The embassy has not hosted a general warden meeting or training session in more
than a year and a half. It is not clear that the wardens know their responsibilities and resources in
the event of an emergency when they might lose communication with the embassy.

Recommendation 14: Embassy Lima should implement an outreach plan to attract new
wardens, update existing warden training, and maintain regular contact with the warden network.
(Action: Embassy Lima)

         The American citizens services unit has a lockable storage closet for the effects of
deceased U.S. citizens, per 7 Foreign Affairs Handbook (FAH)-1 H-648.3-2. However, the key
to this closet is accessible to anyone in the consular section, and the closet is used for other
storage as well. Consular management does not restrict access to this room, which means that
accountability for the effects is not reliable.

Recommendation 15: Embassy Lima should identify a storage area for the effects of deceased
Americans with access restricted to the provisional conservator. (Action: Embassy Lima.)




                                        18
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Consular Agency Cusco

        Cusco—the gateway to Machu Picchu and other Incan archeological sites—is Peru’s
tourist Mecca. The Cusco consular agency has a heavy workload of death, welfare and
whereabouts, and emergency passport cases. The sole consular agent is on call full time. The
agent has a good working relationship with the Lima consular section, but the agency’s space
and equipment are not sufficient for the volume and complexity of the workload.

        Office space is barely large enough for a desk and has no room for storage or additional
support staff, although the workload would justify hiring a locally employed assistant. The
public space is also quite small, requiring the guard to screen visitors on the street. In addition,
the building in which the agency is located has been converted into a hostel, which is noisy and
limits privacy.

        The Bureau of Consular Affairs recently agreed to lease a new office in a building
currently under construction that can be configured to the agency’s needs before it is occupied.
However, the new location will not be ready for a year. In the meantime, several procedural
deficiencies require attention. The agency accepts passport applications and forwards them to the
embassy for processing, but the agent retains copies of those applications, which contain
personally identifiable information, until the applicant receives his or her new passport. The
agent does not have a bar-lock cabinet to protect personally identifiable information, per 7 FAH-
1 H-644.3. Moreover, the agency does not have an impression seal for providing notary
services–standard equipment at consular agencies. The Lima consular section has an excess
impression seal, which they can transfer to Cusco as soon as the agency has appropriate storage.

Recommendation 16: Embassy Lima should obtain a bar-lock cabinet for the Cusco consular
agency. (Action: Embassy Lima)

         The agency’s small size imposes limits on its operations. The consular agent can only
accept cash payments in local currency for services performed, and walk-in public hours are
restricted. This information is not available on the embassy’s public Web site, which results in
unmet expectations for service.

       Informal Recommendation 18: Embassy Lima should create a space on its public Web
       site that details office hours, available services, fees payment options, and appointment
       procedures for the Cusco consular agency.

Naval Medical Research Unit-6

        NAMRU-6 employs 20 percent of the mission’s locally employed staff. Their work is
specialized, and none of the NAMRU-6 staff work on the embassy compound. Approximately
200 U.S. and local staff work at a Peruvian naval facility about an hour from the embassy, and
more than 100 local staff work on a dengue fever project in the Amazon jungle. The embassy
provides NAMRU-6 administrative services, including some travel, procurement, leasing,
vouchering, disbursing, and human resources. Because NAMRU-6 competes for skilled medical
staff with the Peruvian Ministry of Health, their ability to recruit and retain scientific and
medical personnel has been especially affected by the wage freeze of the last 3 years.

                                        19
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         Most of the research unit’s staff, especially the locally employed staff, have had very
little interaction with the embassy community. The NAMRU-6 commandant attends the weekly
country team meetings, the administrative officer attends biweekly embassy management
meetings, and a NAMRU-6 family member is one of the community liaison coordinators.
Neither NAMRU-6 nor the embassy has tapped into all the potential synergies between their
operations.

       Informal Recommendation 19: Embassy Lima should organize regular outreach and
       exchange visits to the Naval Medical Research Unit-6.




                                       20
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Resource Management
           Agency                U.S.           U.S.     Foreign Total     Total
                                Direct-        Locally   National Staff   Funding
                                 Hire         Employed    Staff           FY 2013
                                 Staff          Staff
Department of State
Diplomatic & Consular                49              5        17    72     $3,458,187
Programs
Consular                             17              9        25    51     $2,429,635
ICASS                                 8             25       147   180    $13,215,919
Public Diplomacy                      5              1        20    26     $2,459,003
Diplomatic Security                   7                       25    32     $2,703,919
Marine Security                      13                        4    17       $223,800
Representation                                                       0        $63,938
Overseas Buildings Operations             1          0         0     1     $4,393,372
Expanded Professional                                2               2             $0
Associate Program
Department of Agriculture
Foreign Agriculture Service               2          0         4     6      $706,507
Animal and Plant Health                   1          0         1     2      $351,853
Inspection Service
Department of Defense
Defense Attaché Office                8              0         3    11       $594,884
Naval Medical Research Unit          23              0       193   216     $6,162,173
Military Assistance Advisory         10              0         8    18    $14,000,000
Group
Force Protection Detachment               2          0         1     3      $200,000
Technical Advisory Group                  3          0         0     3            $0
Army Corps of Engineers                   0          0         2     2      $120,000
National Geospatial-                      2          0         1     3      $106,000
Intelligence Agency
Department of Justice
Drug Enforcement                     57              7        12    76
Administration                                                             $8,000,000
Department of Homeland
Security
Citizenship and Immigration               2          2         1     5      $407,788
Services
Secret Service                        4              0         1     5       $360,000
Foreign Commercial Service            2              2         5     9       $887,116
USAID                                37              5        79   121     $6,424,708
INL                                   4              7        36    47     $2,082,178
                                    21
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

INL personal services                      25             0           0      25     $15,500,000
contractors
Peace Corps                                 4             2           1       7      $4,900,000
Treasury                                    2                                 1              $0
Totals                                    288            67        586      941     $89,750,980

Management Overview

        Customer satisfaction with the management section’s performance is generally good, as
reflected in OIG team interviews and 2013 ICASS scores that exceeded the regional and
worldwide averages in many areas. A few areas, however, require attention and are discussed
below. The embassy recently conducted formal customer service training for management staff
to improve internal communication as well as client services.

Real Property

        The embassy occupies a 20-acre U.S. Government-owned compound, developed in 1995.
Facilities include the chancery, an annex constructed in 2002 to accommodate USAID, a
warehouse and commissary building, a recreational field, and the motor pool. A current project
will consolidate INL operations and accommodate growth in the Foreign Agricultural Service
and the Foreign Commercial Service. The facilities management team has kept the compound
attractive, functional, and safe.

        The embassy leases an off-site warehouse facility dedicated primarily to storing ICASS
furniture pool items not required on the chancery compound. The NAMRU-6, DEA, and INL
sections occupy facilities on Peruvian military bases at the port of Callao and the airport under
cooperative arrangements with the Government of Peru. A small, short-term leased consular
agency in Cusco plans to relocate to more suitable office space in a year.

        The U.S. Government-owned chief of mission residence dates back to 1945. The
representational, family, and guest spaces are exceptional, and the residence is well maintained
and furnished. Other government-owned residences include the DCM and Defense attaché
residences and the Marine security guard quarters. Other U.S. direct-hire employees are housed
in short-term leased apartments and residences, with the exception of MAAG staff members,
who are authorized a living quarters allowance at the direction of the U.S. Southern Command.

Financial Management

         The financial management section’s ICASS survey scores were on a par with satisfaction
rates at other embassies in the region. Staff morale is low due to the local compensation wage
freeze, increasing workloads, the legacy of a former underperforming employee, and the lack of
training opportunities. The OIG team proposed ways to improve operations, including
rationalizing workload distribution, providing in-house training, and communicating clearly to
customers how processes work and expected timeframes for service. The OIG team observed a
satisfactory unannounced cash count and found no anomalies in unliquidated obligations,
representational vouchers, or the suspense deposit account.


                                       22
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Travel Advances

         At the time of the inspection, the embassy had 23 open travel advances, with the oldest
dating back 508 days and the majority belonging to INL invitational travelers. Open travel
advances are unpaid debts owed to the United States. The embassy cannot close out an advance
until travelers submit receipts. On occasion, initial repayment notifications were sent months
after travel was completed, and the financial management section does not follow notification
and debt collection regulations consistently, in accordance with 4 FAH-3 H-463.4-1. None of the
open advances older than 90 days were referred to accounts receivable for collection, as required
by 4 FAM 493.1-3.

Recommendation 17: Embassy Lima should implement standard debt collection notification
procedures. (Action: Embassy Lima)

Recommendation 18: Embassy Lima should refer any debt delinquent more than 90 days to
accounts receivable. (Action: Embassy Lima)

Official Residence Expense

        Prior to the inspection, the Class B cashier issued advances for official residence supplies
to the chargé d’affaires office management specialist, who then gave the advance to the official
residence house manager. At the end of the month, the house manager returned purchase receipts
to the Class B cashier to close out the advance. This process was flawed because the office
management specialist had not been designated an occasional money holder in accordance with 4
FAH-3 H-394.2-4 and 4 FAH-3 H-394.4 and, therefore, was not authorized to receive an
advance. Furthermore, 4 FAH-3 H-394.4 (b) prohibits overseas occasional money holders from
holding funds for a period of more than 3 business days. Some cash advances remained open as
long as 3 weeks. The embassy rectified this deficiency during the inspection and is now issuing
advances directly to the chargé. Not maintaining an up-to-date list of designated occasional
money holders could result in money being advanced to unauthorized persons.

       Informal Recommendation 20: Embassy Lima should update records of occasional
       money holders on file with the Class B cashier.

       Informal Recommendation 21: Embassy Lima should implement procedures to close
       advances issued to occasional money holders that are older than 3 business days.

Allowance Overpayments

       As of January 7, 2014, the Payroll Employee Action Request List generated by the
Bureau of the Comptroller and Global Financial Services shows the embassy has 82 potentially
outstanding allowance overpayment actions dating back to FY 2012. Embassy Lima notifies the
Bureau of the Comptroller and Global Financial Services when a traveler returns from travel
outside of the country so that payroll can be adjusted accordingly. However, the bureau is
erroneously including some of these notifications in the Payroll Employee Action Request List
as overpayments that have not yet been processed. The embassy does not have the capability to
process payroll actions, and it cannot correct any errors on the list.

                                       23
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 19: The Bureau of the Comptroller and Global Financial Services should
review the validity of Embassy Lima overpayments on the Payroll Employee Action Request
List and initiate debt collection procedures to recoup valid overpayments. (Action: CGFS)

Voucher Processing

        The general services contracting officer is not complying with Department guidance for
signing invoices in cases of deviation among the invoice, obligating document, and receiving
report that does not require an amendment to the purchase order. Deviations not requiring
amendments include, for example, an invoice amount less than the amount obligated or receiving
a different color item than what was ordered. The contracting officer and the financial
management office have different interpretations of 13 STATE 57938, which allows the
designated billing office to process an invoice for payment if proper obligating and receiving
documents exist. However, it also requires that the contracting officer's representative or
designated representative sign "Approved for Payment" on the invoice in cases of deviations
among the invoice, obligating document, and receiving report that do not require an amendment
to the purchase order. The contracting officer’s failure to sign invoices as approved for payment
could result in an unauthorized commitment.

Recommendation 20: Embassy Lima should require its contracting officers to sign invoices
“Approved for Payment” in cases of a deviation among the invoice, obligating document, and
receiving report that do not require an amendment to the purchase order. (Action: Embassy
Lima)

Human Resources Office

       The human resources office scored high on both the ICASS and inspection surveys. A
new, more costly health benefits plan, combined with a 3-year salary freeze, has affected local
staff morale. The embassy has an eligible family member employment program that provides
approximately 35 jobs in the embassy.

         The local compensation plan is mostly up to date. Several sections of the plan, including
chapters on premium compensation, severance and separation, and benefits for locally employed
staff in “when actually employed” status, are awaiting guidance from the Bureau of Human
Resources’ Office of Overseas Employment.

Recommendation 21: The Bureau of Human Resources should provide the requested guidance
to Embassy Lima to allow completion of the updated local compensation plan. (Action: DGHR)

Equal Employment Opportunity

        Embassy Lima is compliant with 3 FAM 1500 Equal Employment Opportunity (EEO)
program requirements, but management has not given the locally employed staff program
sufficient visibility. Although grievance procedures are displayed on some chancery bulletin
boards, many locally employed staff indicated that they are unfamiliar with their rights under the
program and reluctant to voice their concerns. The former Ambassador’s aloofness with regard
to locally employed staff and their awareness of the impact of some of her behaviors on
American supervisors has also affected willingness to raise workplace issues. Embassy
                                       24
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

management does not promote the EEO program sufficiently through town hall meetings, the
embassy Web page, or the community newsletter.

       Informal Recommendation 22: Embassy Lima should publicize the Equal Employment
       Opportunity program broadly, both in the chancery and at satellite locations.

       The embassy has two designated EEO counselors, one of whom is also the designated
Federal Women’s Program coordinator. The Office of Civil Rights Web site states that the EEO
counselor and the Federal Women’s Program coordinator cannot be the same individual. The
dual designation blurs the related but distinct purposes of the two programs.

Recommendation 22: Embassy Lima, in coordination with the Office of Civil Rights, should
designate a Federal Women’s Program coordinator who is not also the embassy’s Equal
Employment Opportunity counselor. (Action: Embassy Lima, in coordination with S/OCR.)

         A single locally employed staff member is designated as an EEO liaison. One liaison is
insufficient for a mission of 600 locally employed staff, many working at remote locations. The
EEO counselors have shared guidance and information with the EEO liaison over the years, but
the liaison has not received targeted training as to her role and responsibilities.

       Informal Recommendation 23: Embassy Lima should designate and train additional
       Equal Employment Opportunity locally employed staff liaisons, including at satellite
       locations.

       Information on the EEO program is displayed in English and Spanish on bulletin boards
throughout the chancery. However, the information is not displayed in the USAID annex or at
other mission facilities. The bulletin board information includes the names of the two American
counselors but not the locally employed staff liaison.

       Informal Recommendation 24: Embassy Lima should display Equal Employment
       Opportunity information prominently at non-chancery sites and on the embassy intranet
       site.

       Informal Recommendation 25: Embassy Lima should include names and contact
       information for locally employed staff liaisons on the Equal Employment Opportunity
       bulletin boards.

General Services

       The embassy community gave the general services office good scores on both the ICASS
and inspection surveys, with motor pool services being the only weak link.

Housing

       Identifying acceptable housing is labor intensive because of Lima’s dynamic real estate
market and the lack of multiple-listing services. The locally employed leasing agents use
exclusive agents, the Internet, word of mouth, and even drive-by sightings to secure leases,
which total 225. The search for adequate housing was further complicated in 2012, when the
                                      25
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Bureau of Overseas Buildings Operations downgraded Lima to a locality-2 post to reflect
improved living conditions, reducing allowable square footage. In 2013, the regional security
officer determined that a popular neighborhood close to the American school was becoming less
safe because of increased crime, and the housing unit began looking for 18 replacement
properties. Workload is likely to remain high until the housing pool stabilizes.

        The interagency housing board meets at least monthly and assigns housing appropriately.
Apartments and houses are attractive and suitable. New employees generally move directly into
permanent housing. Although there may have been some basis in the past for allegations about
inequitable housing assignments for certain agencies, the embassy is reducing over-standard
leases through attrition.

Motor Pool

       The motor pool’s 73-vehicle fleet is modern and well maintained. The embassy purchases
most vehicles through the General Services Administration to reduce procurement costs.
Appropriate internal management controls are in place to track fuel usage, mileage, and
maintenance, and a new motor pool policy is in place.

        Customers, particularly from agencies and embassy sections that previously operated
their own motor pools, complain that the 12-driver motor pool is unable to meet their needs.
Both ICASS and inspection survey scores are lower than average. Customers report being
dropped off at meetings and events only to be told by the driver that they will have to find their
own way back to work. Motor pool management is aware that it is not meeting customer
expectations, but until recently it lacked sufficient data to assess motor pool capabilities and
resource needs.

       Informal Recommendation 26: Embassy Lima should analyze its motor pool operations
       to improve current service levels while managing customer expectations.

        Motor pool staff and drivers are professional and dedicated. However, efforts to assign
the drivers administrative functions have created tension. The drivers feel they are being tasked
with duties beyond their job description and for which they lack appropriate training, such as
entering mileage data into the fleet management information system. Management, however,
sees those duties as opportunities for professional development.

       Informal Recommendation 27: Embassy Lima should assess which administrative
       duties can be delegated to the drivers, ensure that such duties are reflected in driver
       position descriptions and annual performance reviews, and provide the necessary formal
       training.

        The inspectors found the driver down-time room, which also serves as the dispatcher’s
office, not conducive to efficient operations. The constant flow of traffic through the down-time
room is disruptive. Official files are being stored in the drivers’ locker room, limiting their
personal storage space. Dedicating the down-time room to the drivers, moving the dispatcher to
the private office now occupied by the motor pool supervisor, and relocating the supervisor


                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

closer to the assistant general services officer would promote a more efficient and collegial
motor pool operation.

       Informal Recommendation 28: Embassy Lima should dedicate the motor pool down-
       time room and locker rooms for the exclusive use of drivers and relocate the dispatcher
       and motor pool supervisors to more appropriate office space.

Property Management

         Accountability procedures for the receipt and distribution of personal property, such as
furniture, equipment, and expendable supplies, are good. The property staff is well versed on the
use of ILMS. Most procurement items arrive at a central receiving bay at the chancery
warehouse. Purchases are then turned over to the appropriate expendable, non-expendable,
facilities, and motor pool storekeepers. Warehouses and storerooms are well maintained and
orderly. The general services office holds several disposal sales each year, using a contract
auction house.

        Annual inventory records are in order, and discrepancies are within acceptable norms.
However, the inspectors found that the accountable storekeeper conducts storeroom inventories.
This practice is an internal control weakness. According to 14 FAM 411.2, whenever possible,
duties involving procurement, receiving, payment, property record keeping, and conducting an
annual physical inventory are to be separated.

Recommendation 23: Embassy Lima should establish procedures whereby the annual
inventories of the expendable, maintenance, and automotive supply warehouses are conducted by
property staff not accountable for the property being inventoried. (Action: Embassy Lima)
 Customs and Shipping

        Last year, the customs and shipping unit suffered a noticeable dip in its ICASS customer
satisfaction scores, a departure from its traditionally good performance record. The transfer of
the unit’s most senior and experienced local employee may have contributed to the poor
showing. The inspection team found the local staff to be highly motivated, professional, well
trained, and customer oriented. The unit’s greatest challenge is the Peruvian bureaucracy, which
lacks the capacity to respond to the embassy’s heavy demands. If the Ministry of Foreign Affairs
certifying official is absent, shipments can be delayed. Most recently, the ministry has denied
exceptions for supplemental shipments for no apparent reason. The inspectors advised the
general services office to keep the Office of Foreign Missions informed of any issues affecting
reciprocity.

       Customs and shipping staff are accepting cash from U.S. staff to pay for the certificate
required to obtain diplomatic license plates for their personal vehicles. This practice places
undue liability on the shipping staff if funds are lost or stolen.

       Informal Recommendation 29: Embassy Lima should cease collecting cash from
       American employees to obtain diplomatic license plates for personally owned vehicles.




                                       27
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Procurement and Contracting

        The procurement unit functions well and adheres closely to foreign acquisition
regulations and purchase card program policies. Contracts include required language on
trafficking in persons, and contracting officer’s representatives are cognizant of their
responsibility to monitor contractors for evidence of trafficking violations. The U.S. Government
credit card is widely accepted by local vendors and used for Internet purchases, which reduces
cash transactions. The credit card program coordinator annually reviews cardholder activity to
limit the number of cards in circulation. Although the Department commended the embassy in
2012 for its extensive use of bulk purchase agreements, the general services officer has replaced,
where appropriate, bulk agreements with indefinite delivery-indefinite quantity contracts and
purchase orders to strengthen internal controls. The unit negotiated a new global cell phone
contract, mandatory for all agencies, which will reduce cell phone costs by $715,000 over the 5-
year term of the contract.

        The procurement unit absorbed much of the administrative and some of the programmatic
procurement for the INL section when the latter reduced its procurement staff. The transition has
not always been smooth due to the unusual, time-sensitive, and highly technical aspects of some
INL procurements and the lack of clarity as to which section is responsible for a particular
procurement action. Furthermore, the procurement unit’s strict adherence to acquisition
regulations at times impedes meeting some of the INL section’s non-traditional and urgent
procurement needs.

         Informal Recommendation 30: Embassy Lima should implement a standard operating
         procedure that addresses collaboration between the procurement units in the international
         narcotics and law enforcement section and the embassy’s management section and
         clearly defines their respective procurement responsibilities.

Travel

        The travel unit, which consists of two locally employed staff, provides travel services to
all ICASS subscribers. The embassy has a contract with the local branch of Carlson Wagonlit
Travel to make reservations and issue all tickets. The travel staff mainly processes authorizations
and vouchers using the E2 Solutions travel manager system for entitlement travel (educational,
rest and recuperation, and home leave travel) that is subject to complex travel regulations. Where
applicable, mission offices have designated their own internal E2 travel arrangers to process
TDY travel. Elements of DOD use the Defense Travel System to process their official travel.

        With more than 15 agencies at the mission, several with nontraditional programmatic
funding sources and operations, a standardized approach to authorizing travel is neither feasible
nor practical, despite the Department’s guidance to the contrary. For example, some offices have
found E2 unsuitable for one-time invitational travel for individuals from remote areas, yet no
clear guidance exists on when exceptions are acceptable.

         Informal Recommendation 31: Embassy Lima should establish a standard operating
         procedure that clearly states how various types of travel should be authorized and
         processed.

                                        28
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Facilities Management

        The facilities management section’s ICASS customer satisfaction and inspection survey
scores are in line with regional and worldwide norms. The section is highly automated, and
current standard operating procedures are in place for every maintenance process. All
maintenance technicians are trained to use the Global Maintenance Management System. The
unit’s primary challenge is responding to the maintenance and make-ready requirements of the
225 short-term leased properties. Management has established a well-defined process for holding
landlords accountable for repairs for which they are responsible. Facilities management is the
first embassy section to fund English-language training for its staff to improve customer
relations.

Safety, Health, and Environmental Management

        The facilities manager is the post occupational safety health officer. The embassy has
taken corrective action on all Priority 1 and Priority 2 issues identified in the most recent safety,
health, and environment inspection report. The maintenance staff has all essential safety gear and
participates in monthly safety training programs. The maintenance workshop spaces are clean
and well organized.

        The post safety committee, which includes representatives from multiple offices and
agencies, enjoys strong front office support. Safety records, inventories, and data bases are
detailed and current, and the embassy has an extensive safety program standard operating
procedure consisting of 25 written policies covering all aspects of the program.

Information Management

        Embassy Lima’s information management unit meets the mission’s communication
needs, despite having minimal staffing in several operational areas. Although shorthanded, the
unit has completed several pilot initiatives, notably for consular systems. In his first 6 months in
Lima, the information management officer has focused on improving customer service by
addressing staffing inadequacies that have limited the unit’s ability to provide support. He has
also made training a priority, improving morale and allowing individuals to complete training
courses required for each technical specialty.

       The OIG team identified several areas that require attention, including help desk
procedures, the SharePoint program, the Foreign Affairs Network infrastructure, and the
switchboard operation. The mission addressed some of the issues during the inspection.
Additional details on some of the program’s challenges are in the classified annex.

Contact Database

        The embassy has no missionwide contact database. The protocol office has started to use
the Department’s Contact Management Database, but other sections keep their contact
information in Outlook folders, Excel spreadsheets, and Microsoft Word documents. This lack of
a comprehensive system can lead to duplication of effort, the potential loss of contacts, and
difficulties in managing large events. Successful missionwide implementation of the Contact
Management Database would require training of staff in all sections and agencies so that they
                                        29
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

can configure the database to their needs and input and maintain contact information. The
mission has taken the first step by scheduling training sessions with Department-certified
trainers.

Recommendation 24: Embassy Lima should establish a comprehensive plan and an
implementation timeline for a missionwide contact database. (Action: Embassy Lima)

Information Systems Center

        The information systems center manages a help desk operation that lacks a single focal
point to interface with customers and manage service requests. Currently, customers contact the
information systems center staff directly by phone or submit service requests through eServices.
The systems center has no established procedure for managing service requests, which staff
coordinate on an ad hoc basis. As a result, eService requests are not always handled in a timely
manner and the help desk is vulnerable to service disruptions. Peruvian staff administrator
vacancies have compounded the problem, making it difficult for the administrators to complete
operational duties while providing help desk support.

        The information management officer acknowledges this shortcoming and has started to
establish standard operating procedures for a help desk program. The OIG team suggested
creating a single procedure for assigning service requests to the systems staff, with the office’s
administrative assistant coordinating requests and acting as the primary interface with mission
users. The team also suggested incorporating a mechanism for soliciting customer feedback as
part of the eService process. This approach has been identified as a best practice at other
missions.

Recommendation 25: Embassy Lima should establish a standard operating procedure, including
a feedback mechanism, for managing the information systems center’s eService requests.
(Action: Embassy Lima)

SharePoint Program

        The embassy’s internal SharePoint site is underused, and embassy management had
already flagged the program as an area for improvement. Several mission sections have internal
SharePoint pages that contain minimal or dated information and are not actively maintained.
Furthermore, the overall structure of the site is not organized intuitively to facilitate internal
information sharing and communication. A previous initiative to establish SharePoint as the
main collaborative platform for mission operations was short lived because the only trained
personnel transferred. Information management has plans to resume work on the SharePoint
program and establish a training group of subject matter experts in each mission section. The
information management officer has submitted a resource request that identifies additional
staffing to support the SharePoint initiative. The OIG team supports this approach.

Foreign Affairs Network

       Embassy Lima was the first of several missions in the Department to implement the
Foreign Affairs Network in response to the Information Technology Transformation Initiative
consolidation project. This project, which the Department no longer supports, created a hybrid
                                        30
                            SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

network infrastructure with several Foreign Affairs Network workstations that require
installation of new system upgrades and enterprise software updates. Systems security issues
have necessitated a missionwide notice on appropriate use of the Foreign Affairs Network.
Support requirements for the network will continue to be a challenge until the Department issues
guidance on managing the Foreign Affairs Network.

Recommendation 26: The Bureau of Information Resource Management, in coordination with
the Bureau of Western Hemisphere Affairs, should provide operational guidance to missions
designated as Information Technology Transformation Initiative pilots that continue to operate
Foreign Affairs Networks. (Action: IRM, in coordination with WHA)

Telephone Operators

        Four telephone operators and a receptionist support the switchboard operation during
normal business hours. The bulk of the switchboard’s call volume occurs between 2:30 p.m. and
4:30 p.m. when the consular section accepts American citizens services calls from the public.
Analysis of a sample of the daily calls was inconclusive; however, the ebb and flow in call
volume supports the need for additional workload and staffing analysis. A review would allow
the information management unit to determine if unnecessary personnel resources could be
redirected to higher priority programs.

           Informal Recommendation 32: Embassy Lima should review the mission’s switchboard
           call volume and, if warranted, adjust the current information management section staffing
           pattern.

Regional Environment Office Web Site

       The regional environment office has a public Web site with a .com domain and has had
technical problems trying to convert it to a .gov domain, as required by 5 FAM 793.3a. In
December 2013, the office established a Facebook page but has no link to it from the embassy
Web site. Disseminating information about environmental issues will be increasingly important
in 2014, as Peru prepares to host the COP 20 5 international environmental conference.

Recommendation 27: Embassy Lima should convert the regional environment office Web site
to a .gov domain in accordance with Department of State guidelines. (Action: Embassy Lima)

           Informal Recommendation 33: Embassy Lima should promote the regional environment
           office’s digital outreach sites through the embassy Web site and social media.




5
    The 20th session of the Conference of the Parties to the United Nations Framework Convention on Climate Change.


                                             31
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Quality of Life
        A somewhat dreary climate, chronic traffic jams, air and water pollution, and high levels
of street crime all detract from quality of life. The surrounding desert means that air travel is
required for any change of scenery. As a result of these and other daily hardships, employees are
authorized a 15-percent post differential. They also receive a 30-percent cost-of-living allowance
to reflect the high cost of consumer goods. Employees also receive two rest and recuperation
trips for a 3-year tour.

         At the same time, Lima offers a full range of urban amenities that serve to mitigate the
hardships. Cultural and historical sites abound. Embassy families have a choice of several good
schools. Consumer goods are readily available. Internet service is dependable. Good restaurants
of all kinds are a testament to Peruvians’ reputation for good food. Travel to the Andes and
Amazon regions provides for once-in-a-lifetime experiences. These positive attributes encourage
many employees to extend their tours.

Community Liaison Office

        In 2013 the embassy hired two individuals to job share as co-community liaison office
coordinators. The office runs a sponsor and orientation program for new employees in addition
to organizing community activities throughout the year. The coordinators are well integrated into
the embassy operation, serve on the emergency action committee and the interagency housing
board, attend section-head meetings with the DCM, and participate in the family member hiring
process.

Health Unit

        In the past year, the regional medical officer has implemented a number of measures
designed to improve customer service and the quality of medical care. In the near term, a
reorganization and expansion of the office will increase current staffing from two to four part-
time nurse practitioners. This change will allow the unit to handle more patients in-house rather
than referring them to local medical providers and, for the first time, will permit the unit to write
prescriptions when the regional medical officer is absent from post.

Overseas Schools

       [Redacted] (b) (5), [Redacted] (b) (6)
is governed by a nine-member board; the management counselor and a family member, who is
an educator, are current board members. The Office of Overseas Schools has provided grants to
the school since 1946, and the Bureau of Overseas Buildings Operations has provided soft target
funding as needed to enhance school security. Embassy students are given priority placement.
The school offers a range of programs for students with special educational needs. Other
embassy dependents attend a variety of acceptable schools.

      The OIG team found that the management counselor was administering the Office of
                                  [Redacted] (b) (5), [Redacted] (b) (6)

Overseas Schools’ grants for the     school while concurrently serving as a school board

                                        32
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

member. According to 2 FAM 613, this conflict of interest is prohibited. During the inspection,
the embassy designated another official to administer the school grants.

Employee Association

        The American Employees Community Association provides a variety of services (cost
centers) that contribute to the morale and welfare of American employees and locally employed
staff. The Office of Commissary and Recreation Affairs conducted an internal review of the
association in February 2013 and noted that it “was professionally managed and financially
sound.” The OIG team agrees with this overall appraisal but identified a number of issues that
require remediation.

         The association has five employees for whom it pays salary and benefits, including
retirement and medical elements of the local social security system and unemployment severance
benefits required under Peruvian law. The embassy is careful that benefits for association
employees are paid with association funds and that direct-hire U.S. Government staff are paid
with U.S. Government funds. Because the association is not registered with local authorities as
an employer in its own right, at least partially in order to maintain its ability to import goods duty
free, association employees are listed as U.S. Government employees on the benefit payment
reports required by and submitted to the Government of Peru. In 6 FAM 536 a., the regulations
specify that association employees are not U.S. Government employees and prohibit “giving the
appearance that association employees are employees of the U.S. Government.” Inclusion of
association employees on the benefit reports submitted for U.S. Government locally employed
staff to Peruvian agencies could give such an appearance and could represent a potential liability
for the U.S. Government in the event of a grievance or legal dispute involving the association
and its employees.

Recommendation 28: Embassy Lima, in coordination with the Office of Commissary and
Recreation Affairs, should direct the employee association to engage a local labor attorney to
determine whether the current reporting structure represents a potential liability to the U.S.
Government under local labor law and, if it does, should implement corrective measures to
eliminate that liability. (Action: Embassy Lima, in coordination with A)

        In 2012, all the association’s cost centers reported a profit. The Office of Recreation and
Commissary Affairs implemented two significant accounting changes during its 2013 inspection.
In the first, the Office of Recreation and Commissary Affairs changed the allocation of staff and
management overhead among cost centers to a percentage of time spent instead of a percentage
of sales. In the second, they broke two services (registration of domestic employees and
local/consignment sales) out of general commissary sales and established separate cost centers.
In 2013, both of these new cost centers showed a loss. Per 6 FAM 531.5, each cost center must
be “financially self-sustaining to ensure that the profits of one cost center are not unduly
subsidizing another cost center, as determined by the Office of Commissary and Recreation
Affairs.” As a result of the accounting changes made a year ago, the association is no longer
compliant with that requirement.

Recommendation 29: Embassy Lima, in coordination with the Office of Commissary and
Recreation Affairs, should determine whether the registration of domestic employees and

                                        33
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

local/consignment sales cost centers are being subsidized unduly and implement measures to
make them financially self-sustaining. (Action: Embassy Lima, in coordination with A)

        The association manages a parking pass program for the embassy in which American and
local employees pay $20 per year from their personal funds to park their personal vehicles in two
lots located inside the compound but outside the secure compound access control. These funds,
less administrative costs, are earmarked for the community liaison office and locally employed
staff organizations for activities benefitting the embassy community. The Office of Commissary
and Recreation Affairs acknowledged this cost center in its 2013 inspection report and advised
the OIG team by email that they had no problem with the parking pass program as a cost center.

        Additionally, approximately 45 U.S. Government-owned vehicles used for home-to-
office transportation by employees of four agencies are occasionally parked in these outer
parking lots. These agencies purchase the parking passes with U.S. Government-appropriated
funds. The Office of Commissary and Recreation Affairs advised the OIG team that paying the
association directly with official funds violates Federal Acquisition Regulation 3.601, which
prohibits the U.S. Government from doing business with organizations “substantially owned or
controlled by one or more government employees, which includes employee associations.” The
Office of Commissary and Recreation Affairs advised that getting an exemption to this Federal
Acquisition Regulation clause is possible.

Recommendation 30: Embassy Lima, in coordination with the Office of Commissary and
Recreation Affairs, should either obtain an exemption to Federal Acquisition Regulation 3.601 or
eliminate the payment of parking fees to the association with official U.S. Government funds.
(Action: Embassy Lima, in coordination with A)




                                       34
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Management Controls
        The former Ambassador played an active role in assessing the adequacy of the embassy’s
internal management controls. Her July 12, 2013, chief of mission annual management controls
statement of assurance is thorough and includes certification that mission managers completed
risk assessment questionnaires as part of the process. Supporting documentation includes a copy
of the mission inventory report, certification that the housing program complies with FAM
requirements, and Federal Managers’ Financial Integrity Act management control reviews. The
evaluation of the systems of management controls provides reasonable assurance that no
unidentified potential vulnerabilities or material weaknesses existed.




                                      35
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of Democracy, Human Rights, and Labor should establish a
mechanism to share information with Embassy Lima about grant progress and performance
evaluation. (Action: DRL)

Recommendation 2: Embassy Lima should enroll in on-line grants management training
political section employees with formal or informal grants oversight responsibilities. (Action:
Embassy Lima)

Recommendation 3: Embassy Lima should have at least one public affairs grants officer who
is not on the Fulbright Commission board. (Action: Embassy Lima)

Recommendation 4: Embassy Lima should store all grants files with personally identifiable
information of U.S. citizens in approved bar lock cabinets or safes. (Action: Embassy Lima)

Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs
should coordinate with the Bureau of Administration to establish a clear invitational travel policy
that includes options for processing one-time travel authorizations. (Action: INL)

Recommendation 6: Embassy Lima should formalize the delineation of services between
Department of State entities and the Drug Enforcement Administration section to clarify which
entity provides which services. (Action: Embassy Lima)

Recommendation 7: Embassy Lima should include public outreach as an ongoing
responsibility in work requirements statements and establish a mechanism to monitor
participation. (Action: Embassy Lima)

Recommendation 8: Embassy Lima should establish an embassy speakers program with an
initial focus on first- and second-tour officers. (Action: Embassy Lima)

Recommendation 9: Embassy Lima should establish procedures for overseeing the housing
and logistical plans for incoming American Fulbright grantees in accordance with Department of
State guidance. (Action: Embassy Lima)

Recommendation 10: Embassy Lima should establish a plan for mission public outreach
activities in the newly refurbished first-floor public diplomacy space. (Action: Embassy Lima)

Recommendation 11: Embassy Lima should require both the consul general and the visa chief
to conduct routine visa interviews on a regular basis. (Action: Embassy Lima)

Recommendation 12: Embassy Lima should waive personal interviews for appropriate visa
applicants. (Action: Embassy Lima.)

Recommendation 13: Embassy Lima should request fingerprint machines for all visa
interview windows. (Action: Embassy Lima)




                                       36
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 14: Embassy Lima should implement an outreach plan to attract new
wardens, update existing warden training, and maintain regular contact with the warden network.
(Action: Embassy Lima)

Recommendation 15: Embassy Lima should identify a storage area for the effects of deceased
Americans with access restricted to the provisional conservator. (Action: Embassy Lima.)

Recommendation 16: Embassy Lima should obtain a bar-lock cabinet for the Cusco consular
agency. (Action: Embassy Lima)

Recommendation 17: Embassy Lima should implement standard debt collection notification
procedures. (Action: Embassy Lima)

Recommendation 18: Embassy Lima should refer any debt delinquent more than 90 days to
accounts receivable. (Action: Embassy Lima)

Recommendation 19: The Bureau of the Comptroller and Global Financial Services should
review the validity of Embassy Lima overpayments on the Payroll Employee Action Request
List and initiate debt collection procedures to recoup valid overpayments. (Action: CGFS)

Recommendation 20: Embassy Lima should require its contracting officers to sign invoices
“Approved for Payment” in cases of a deviation among the invoice, obligating document, and
receiving report that do not require an amendment to the purchase order. (Action: Embassy
Lima)

Recommendation 21: The Bureau of Human Resources should provide the requested guidance
to Embassy Lima to allow completion of the updated local compensation plan. (Action: DGHR)

Recommendation 22: Embassy Lima, in coordination with the Office of Civil Rights, should
designate a Federal Women’s Program coordinator who is not also the embassy’s Equal
Employment Opportunity counselor. (Action: Embassy Lima, in coordination with S/OCR.)

Recommendation 23: Embassy Lima should establish procedures whereby the annual
inventories of the expendable, maintenance, and automotive supply warehouses are conducted by
property staff not accountable for the property being inventoried. (Action: Embassy Lima)

Recommendation 24: Embassy Lima should establish a comprehensive plan and an
implementation timeline for a missionwide contact database. (Action: Embassy Lima)

Recommendation 25: Embassy Lima should establish a standard operating procedure,
including a feedback mechanism, for managing the information systems center’s eService
requests. (Action: Embassy Lima)

Recommendation 26: The Bureau of Information Resource Management, in coordination with
the Bureau of Western Hemisphere Affairs, should provide operational guidance to missions
designated as Information Technology Transformation Initiative pilots that continue to operate
Foreign Affairs Networks. (Action: IRM, in coordination with WHA)

Recommendation 27: Embassy Lima should convert the regional environment office Web site
to a .gov domain in accordance with Department of State guidelines. (Action: Embassy Lima)
                                             37
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 28: Embassy Lima, in coordination with the Office of Commissary and
Recreation Affairs, should direct the employee association to engage a local labor attorney to
determine whether the current reporting structure represents a potential liability to the U.S.
Government under local labor law and, if it does, should implement corrective measures to
eliminate that liability. (Action: Embassy Lima, in coordination with A)

Recommendation 29: Embassy Lima, in coordination with the Office of Commissary and
Recreation Affairs, should determine whether the registration of domestic employees and
local/consignment sales cost centers are being subsidized unduly and implement measures to
make them financially self-sustaining. (Action: Embassy Lima, in coordination with A)

Recommendation 30: Embassy Lima, in coordination with the Office of Commissary and
Recreation Affairs, should either obtain an exemption to Federal Acquisition Regulation 3.601 or
eliminate the payment of parking fees to the association with official U.S. Government funds.
(Action: Embassy Lima, in coordination with A)




                                       38
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Lima should conduct a zero-based review of all
current meetings, working groups, paperwork demands and processes, as well as the informal
staff assistant program and have recommendations that are designed to facilitate communications
in the mission ready for the new Ambassador.

Informal Recommendation 2: Embassy Lima should take steps to demonstrate recognition of
and respect for the Secretary of Defense designation of a senior Defense official and Defense
attaché in Peru.

Informal Recommendation 3: Embassy Lima should clarify the mechanism that attachés use
to report to or route documents to the front office.

Informal Recommendation 4: Embassy Lima should include more detailed monitoring plans
in complex grants.

Informal Recommendation 5: Embassy Lima should convene periodic embassy-wide
meetings of grants officers and grants officer representatives to discuss grants issues.

Informal Recommendation 6: Embassy Lima should continue to give priority attention to
consolidation of the international narcotics and law enforcement affairs section.

Informal Recommendation 7: Embassy Lima should review the political reporting plan and
determine whether reporting adequately reflects mission goals beyond domestic politics,
counternarcotics, and law enforcement cooperation.

Informal Recommendation 8: Embassy Lima should adjust political section portfolios to
provide adequate reporting for human rights and trafficking issues.

Informal Recommendation 9: Embassy Lima should create a public diplomacy program and
outreach calendar and place it on the internal mission SharePoint site.

Informal Recommendation 10: Embassy Lima should create a missionwide travel calendar on
its internal embassy SharePoint site.

Informal Recommendation 11: Embassy Lima should become more involved in the
recruitment, selection, and briefing of participants in the Teaching Excellence and Achievement
program.

Informal Recommendation 12: Embassy Lima should update the mission Web site regularly
and use it to showcase embassy activities.

                                       39
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 13: Embassy Lima should combine its separate YouTube sites or
link the embassy Web site to both.

Informal Recommendation 14: Embassy Lima should establish a comprehensive plan for
working with the binational centers.

Informal Recommendation 15: Embassy Lima should require the consular section to update
standard operating procedures and place all procedures, clearly dated, on the SharePoint site.

Informal Recommendation 16: Embassy Lima should install privacy wings and sound-
proofing material on the applicant side of the visa interview windows.

Informal Recommendation 17: Embassy Lima should rotate consular duty among all consular
section officers with experience in American citizens services.

Informal Recommendation 18: Embassy Lima should create a space on its public Web site
that details office hours, available services, fees payment options, and appointment procedures
for the Cusco consular agency.

Informal Recommendation 19: Embassy Lima should organize regular outreach and exchange
visits to the Naval Medical Research Unit-6.

Informal Recommendation 20: Embassy Lima should update records of occasional money
holders on file with the Class B cashier.

Informal Recommendation 21: Embassy Lima should implement procedures to close advances
issued to occasional money holders that are older than 3 business days.

Informal Recommendation 22: Embassy Lima should publicize the Equal Employment
Opportunity program broadly, both in the chancery and at satellite locations.

Informal Recommendation 23: Embassy Lima should designate and train additional Equal
Employment Opportunity locally employed staff liaisons, including at satellite locations.

Informal Recommendation 24: Embassy Lima should display Equal Employment Opportunity
information prominently at non-chancery sites and on the embassy intranet site.

Informal Recommendation 25: Embassy Lima should include names and contact information
for locally employed staff liaisons on the Equal Employment Opportunity bulletin boards.

Informal Recommendation 26: Embassy Lima should analyze its motor pool operations to
improve current service levels while managing customer expectations.

Informal Recommendation 27: Embassy Lima should assess which administrative duties can
be delegated to the drivers, ensure that such duties are reflected in driver position descriptions
and annual performance reviews, and provide the necessary formal training.

Informal Recommendation 28: Embassy Lima should dedicate the motor pool down-time
room and locker rooms for the exclusive use of drivers and relocate the dispatcher and motor
pool supervisors to more appropriate office space.
                                       40
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 29: Embassy Lima should cease collecting cash from American
employees to obtain diplomatic license plates for personally owned vehicles.

Informal Recommendation 30: Embassy Lima should implement a standard operating
procedure that addresses collaboration between the procurement units in the international
narcotics and law enforcement section and the embassy’s management section and clearly
defines their respective procurement responsibilities.

Informal Recommendation 31: Embassy Lima should establish a standard operating procedure
that clearly states how various types of travel should be authorized and processed.

Informal Recommendation 32: Embassy Lima should review the mission’s switchboard call
volume and, if warranted, adjust the current information management section staffing pattern.

Informal Recommendation 33: Embassy Lima should promote the regional environment
office’s digital outreach sites through the embassy Web site and social media.




                                      41
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                        Name Arrival Date
Chargé d’Affaires                                       Michael J. Fitzpatrick      08/11
Acting Deputy Chief of Mission                           Jeffrey M. Hovenier        07/11
Chiefs of Sections:
  Management                                                    Eric A. Flohr       07/10
  Consular                                                Elizabeth C. Power        09/11
  Political                                                 Philip W. Kaplan        07/10
  Economic                                                 David M. Schnier         08/11
  Regional Environmental Office                           Andrew A. Griffin         08/13
  Public Affairs                                              Mary E. Drake         10/11
  Regional Security                                          Dean L. DeVilla        06/13
   Acting International Narcotics and Law Enforcement         Catherine Holt        07/13
Affairs
Other Agencies:
  Foreign Agricultural Service                                  Emiko Purdy         08/10
  Animal and Plant Health Institute Service                      George Ball        03/12
  Department of Defense                                            John Ries        08/11
  Foreign Commercial Service                                  Ricardo Pelaez        10/13
  Drug Enforcement Administration                            Lizette Yrrizary       12/11
  Military Assistance Advisory Group                        Carlos G. Berrios       06/11
  Peace Corps                                                 Parmer Heacox         11/13
  National Geospatial-Intelligence Agency                 Steven M. Galinski        01/10
  U.S. Citizenship & Immigration Service                    William P. Lujan        02/14
  U.S. Secret Service                                         Frank Romano          01/13
  U.S. Agency for International Development             Deborah K. Kennedy-         11/12
                                                                      Iraheta




                                     42
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM              Deputy chief of mission

DEA              Drug Enforcement Administration

DOD              Department of Defense

EEO              Equal Employment Opportunity

FAST             First-and second-tour employees

ICASS            International Cooperative Administrative Support Services

ILMS             Integrated Logistics Management System

INL              International Narcotics and Law Enforcement Affairs

MAAG             Millitary Assistance Advisory Group

NAMRU-6          Navy Medical Research Unit

OIG              Office of Inspector General

SDO/DATT         Senior Defense officer and Defense attaché

USAID            U.S. Agency for International Development




                            43
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
